                                            From the Inspector General
In just a few months, we will embark upon a new century. The 6-month period reflected in this doc-
ument was a time of substantial progress in our ongoing work to support the U.S. Department of
Transportations strategic goals.

This Semiannual Report provides details on 64 audits and 105 investigations finalized between April
1, 1999 and September 30, 1999. OIG also testified before Congress 5 times in the past 6 months,
bringing our total testimonies before the U.S. House and Senate to 18 in Fiscal Year 1999, a record.

In addition to reports on the safety issues surrounding code-sharing by U.S.-based and foreign air-
lines, the Office of Inspector General delved deeper into the issue of trucking safety in the United
States and the Departments role as a regulator in guaranteeing it. In 1998, motor-carrier crashes
claimed 5,300 lives. Consequently, this was the highest-priority safety issue addressed by Congress
this year; as this goes to press, the House has passed a bill on the issue and Senate action is pend-
ing on a related measure. Both pieces of legislation incorporate OIGs recommendations.

OIG identified $840.3 million that can be put to better use, including $672 million in dormant DOT
financial obligations.

We are nearing the culmination of OIGs 2 years of work in conjunction with DOT and its operat-
ing administrations to identify and correct possible computer problems caused by the date change
from 1999 to the year 2000. That work has contributed substantially to the identification of poten-
tial problems and to remedial action.

We are proud of the work of our investigators on such significant cases as the commercial drivers
license-selling scandal in Illinois, fraudulent sales of flight-critical aviation hose assemblies, pollu-
tion of U.S. waters by a cruise-ship line and systematic fraud against Illinois by a highway contrac-
tor. OIGs special agents are on the front lines fighting fraud and ensuring public health and safety.

Internet users have found our website (http://www.dot.gov/oig) useful. This important communi-
cations tool has offered our audit reports, updates on our investigations, access to our hotline and
other information to more than 136,000 visitors this year.

We note with great sadness the passing of our friend and colleague, Assistant Inspector General for
Auditing Lawrence Weintrob. He left a legacy of public service we all would be honored to achieve.

With the support and cooperation of the Secretary, his staff and all DOT operating administrations,
we look forward to making even more progress in the year 2000.


                                                                 Kenneth M. Mead
                                                                 Inspector General
                      Summary of Performance
                     Office of Inspector General
               April 1, 1999-September 30, 1999

                    Reports Issued   64
 Total financial recommendations     $845,813,000
       That funds be better-used    $840,263,000
                Questioned costs    $ 5,550,000

         Referrals for prosecution 192

   Cases accepted for prosecution 170

                      Indictments 134

     Fines, restitutions, recoveries $ 6,050,092

                      Convictions 93

Contract terminations/debarments
 15

 Actions affecting DOT employees
 41
Audits and Investigations                    1


Focus:	      Airline Code-Sharing Safety     2
             Year-2000 Computer Readiness    4

Chart: Work Planned and in Progress          6


Audit and Investigative Results:

April 1999                                   8

May 1999                                    12

June 1999                                   16

July 1999                                   20

August 1999                                 24

September 1999                              28


Organization/Management                     35


Chart: OIG Organization                     35


Table: Completed Audits                     36


Table: Management Decisions                 37

                                           Contents
Table: Reports with Recommendations
         That Questioned Costs                         38

Table: Recommendations That Funds
         Be Put to Better Use                          39

Table: Recommendations for Safety,
         Economy or Efficiency                         40

Table: Status/Unresolved Audit Recommendations         41


Table: Profile of Pending Investigations               42


Table: Judicial Actions                                43


Table: Administrative Actions                          43


Charts: Audit and Investigative Resource Application   44


Chart: OIG Fiscal Year 2000 Budget                     45


List of Audits                                         46

                                                 Audits and
                                              Investigations
The Office of Inspector General includes a staff of auditors and evaluators who review
the programs and operations of the U.S. Department of Transportation to help its man-
agers, and Congress, improve them. Some audits focus on financial issues; others
review the effectiveness of programs. The Inspector Generals staff also includes inves-
tigators who build criminal cases against lawbreakerssuch as trucking firms that force
drivers to work too many hours without rest, haulers who illegally transport hazardous
materials, vendors who traffic in illegal, unapproved aircraft parts and Department staff
who violate public trust.

Many factors go into determining what to audit. Some audits are required by law.
Others are requested by key decisionmakers, such as the Secretary of Transportation,
heads of the operating administrations within DOT or Members of Congress. The OIG
audit agenda is also based on the past experience of an audited entity, the strategic goals
of DOT, and priorities established each year by OIG itself. The Inspector General Act
requires the Department to provide the IG with all requested information and for the IG
to report any instance in which access was denied. No information requested by OIG
was withheld by DOT officials during the 6 months covered in this report.

Information for OIG investigations also comes from many areas. DOTs operating
administrations and state government officials often will refer tips or information about
suspicious activity to OIG special agents for investigation. Those agents, often with
assistance from other Federal and state law-enforcement agencies, build the cases, exe-
cuting search warrants as needed and making arrests in the process. The majority of
cases are prosecuted by United States attorneys in Federal courts.

Another source of investigative direction is the Office of Inspector General hotline, an
800 number that lets citizensincluding Federal workershave direct access to OIG
staff. The number is 1-(800)-424-9071. Hotline users are not obliged to disclose their
identities and whistle-blowers within the government are protected from reprisal by
Federal law. The hotline staff now can be e-mailed at hotline@oig.dot.gov


                                    1
  Focus:

         Objective: to ensure that the partnerships between U.S. and
            foreign air carriers provide adequate passenger safety

     FAA should expand its role in safeguarding
        passengers on code share flights
Code sharing, the practice of U.S. airlines ticketing their pas-
sengers onto foreign-owned airlines to complete a trip, has
more than tripled in the past 5 years, from 53 such agreements
to 196 as of last May. However, with that growth, U.S. air car-
riers now are partnering with carriers in regions of the world
where safety oversight and safety records are not as strong as
those of the United States. To date, the U.S. Department of
Transportations approval of code-share arrangements has
focused on international trade and competition issues.

FAA, the Departments expert on aviation matters, has limit-
ed its commentary on the safety of such arrangements to
reporting whether the government in the home nation of a
proposed code-share partner has oversight that complies with
international safety standards. This falls short of analyzing
the actual safety or track record of a partner airline.

Safety concerns associated with code-sharing prompted
Congressman James Oberstar of Minnesota to introduce legis-
lation requiring U.S. carriers to do safety audits of their for-
eign partners as a condition of code-share approval. In May,
the Office of the Secretary and FAA formed a working group
to ensure availability of safety data in code-share decisions.


                                            2
                 Airline code-sharing safety

       Legal and resource issues can be resolved

In our audit (AV-1999-138) we recommend that FAA require domestic airlines entering
into such partnerships to assess the safety of their foreign partners and that FAA devel-
op ways to validate the assessment results.

FAA thus far has restricted its safety oversight role in code-share agreements because
of perceived limitations of its legal authority and resource constraints. If FAA were
attempting to assess the safety of foreign carriers without regard to their relationship
with U.S.-based airlines, the legal argument might hold. However, FAA is well within
its authority whenas in these casesa U.S.-based carrier seeks Federal government
approval to offer the public foreign flights as if they were U.S. flights, and tickets them
in the name of the U.S.-based airline. Further, the legislation which gives DOT
approval authority over code-share agreements states that safety should take the high-
est priority in determining what is in the public interest. Though FAA has limited
resources, DOT can condition approval of code-sharing agreements on the willingness
of a U.S.-based partner airline to perform the safety checks on its foreign partners oper-
ations, and have FAA assure safety standards are met.


             FAA can supplement prior airline/

                Defense Department work

The Department of Defense, six U.S.-based airlines, and the Air Transport Association
currently have an arrangement in which the six carriers, or their designees, assess the
safety of foreign code-share partners on flights carrying U.S. military personnel. The
Defense Department allows code-share flights to be designated as U.S. flights under the
Fly America Act, which requires Federal employees flying to foreign countries at gov-
ernment expense to travel via U.S. flag carriers. In order to get the Defense
Departments business, the U.S. carriers must make the safety checks on their foreign-
based code-share partners. DOT and FAA should build on this excellent foundation.

                                            3
Focus:

            Objective: to ensure continuous service from U.S. and

                                                              and
                    international transportation systems

                                                 systems

   DOT has done a great deal, but tasks remain

   for a smooth transition to the new millenium 

 In 1997, the Office of Inspector General did its first of 9 reviews of the Year-2000 prob-
 lem, in which computers programmed with 2-digit numbers to represent each year could
 not be relied on to differentiate the year 2000 from the year 1900. There was internation-
 al concern that the problem could spur mass computer-system failures.

 In the months since our first in-depth looks at the issue, DOT and its operating administra-
 tions have done a great deal to address it. Of 609 mission-critical systems within the
 Departmentused to support such functions as air traffic control, searches and rescues
 involving ships, and safety inspections310 required Year-2000 repairs, and all 310 sys-
 tems have been fixed. Included were 152 aviation-related systems, 87 maritime systems
 and 34 systems related to surface transportation. The success of this undertaking is attrib-
 utable to strong congressional oversight, leadership by the Secretary and Deputy Secretary
 of Transportation and the modal administrators, and hard work by DOT employees.

 Nevertheless, OIGin September testimony before the U.S. Senates Special Committee
 on the Year 2000 Technology Problemidentified areas in which further preparedness is
 needed to guarantee a smooth transition into the 21st Century:

                                        z      DOT must make sure new work on computers
                                     or their software does not undo earlier-accomplished
                                     Year-2000 fixes.

                                        z     DOT and its operating administrations need
                                     to prepare and drill contingency plans in the event
                                     Y2K failures occur. At FAA, this will include
                                     refreshing air traffic control personnel in procedures
                                     that do not rely on radar. Union participation is crucial.



                                             4
Year-2000 computer readiness
         z       As of October 27, 1999, FAA still lacked Y2K
         readiness information from 657 air carriers. FAA
         should require timely delivery of that information.
         Most affected carriers are small ones; 100 percent of
         large airlines, which supply 95 percent of all U.S. pas-
         senger service, report readiness. FAA should consider
         action regarding non-response similar to the U.S.
         Coast Guards refusal to grant port access to ships that
         did not report Y2K readiness status.



         International Issues
         In March 1999, we recommended that FAA determine
         whether it should allow flights by U.S.-based carriers
         to nations not known to be Year-2000 compliant. FAA
         has since developed a process to review international
         aviation Y2K readiness, and DOT heads an intera-
         gency committee that includes the Department of
         Defense and Department of State to evaluate such
         readiness. The committees review showed that, as of
         October 21, 1999, 18 of the 89 nations most frequent-
         ly visited by U.S. carriers did not provide enough
         information for a Year-2000 readiness assessment to
         be made. Another 27 nations did not respond to the
         interagency survey.



         FAA must determine whether it will restrict flights to
         unresponsive or insufficiently responsive nations.




             5
   Office of Inspector GeneralWork Planned and in Progress

In the interest of maximizing DOTs value to citizens, the Secretary of Transportation has developed a Strategic Plan setting pri-
orities for the appropriate deployment of Departmental staff and other resources. This chart illustrates major OIG work planned
and in progress in relation to the Secretarys priorities of Safety, Mobility, Economic Growth and Trade, Human and Natural
Environment and National Security.




Strategic goal: Safety

zReview Year-2000 computer problems affecting the                zFollow up on FAA actions to reduce runway incur-
aviation industry and FAA strategy to address them.              sions.


zReview FAAs $40 million annual investment in air-              zReview the Office of Pipeline Safetys oversight of min-
craft safety research, engineering and development,              imum safety requirements for operation and mainte-
including work to address aging-aircraft issues.                 nance of interstate hazardous-liquids pipelines.

zReview adequacy of controls to ensure that only qual-           zReview the Coast Guards performance goals for
ified truck drivers receive and retain commercial driv-          reducing recreational boating fatalities.
ers licenses.
                                                                 zPlace priority on OIG investigations affecting safety--
zEvaluate effectiveness of FAAs inspection system for           specifically HAZMATs, motor carrier safety and traf-
makers of aviation fasteners.                                    ficking in unapproved aircraft parts.




Strategic Goal: Mobility

zReview FAA efforts to modernize the air traffic con-            zDetermine the level of air carriers compliance with
trol system, including the Wide Area Augmentation                the Airline Customer Service Commitment Act.
System, Standard Terminal Automation Replacement
System, Oceanic Automation Program, HOST computer                zConduct baseline and appropriate in-depth reviews
system and Free Flight.                                          of DOT Megaprojects, highway and transit projects
                                                                 costing $1 billion or more.
zAssess Amtraks FY 2000 strategic business and capi-
tal plans and their effect on Amtraks ability to achieve        zUpdate the cost, funding, and viability of the Penn
operating self-sufficiency by 2003.                              Station Redevelopment Project involving New Yorks
                                                                 Farley Post Office Building.
zReview airline flight delay data to determine the
extent, nature and causes of flight delays and cancella-         zConduct investigations of fraud, waste and abuse in
tions.                                                           connection with major infrastructure projects.




                                                                 6
Strategic Goal: Economic
Growth and Trade                                                 zConduct fraud-awareness briefings for Federal Highway
                                                                 Administration and Federal Transit Administration officials
                                                                 and for state and local FHWA and FTA grantees.
zInvestigate contract, grant, and procurement fraud.




Strategic Goal: Human and
Natural Environment
zEvaluate the Maritime Administrations progress in              zPlace priority on investigations of hazardous materials
scrapping obsolete vessels.                                      violations including participation in Environmental Crime
                                                                 Task Force operations in multiple geographic locations.
zCoordinate, with RSPA and a team from all operating
administrations overseeing hazardous materials, an evalu-        zDetermine whether FAA is using Airport Improvement
ation of DOTs HAZMAT transportation program.                    Funds cost-effectively on noise-mitigation projects.



Strategic Goal: National                                         zAssist chief information officers throughout the
                                                                 Department enhancing computer security, processing
Security                                                         integrity and effectiveness.

zDetermine whether FRA can effectively inspect up to 600
                                                                 zReview MARAD internal controls over ship-manager
nuclear shipments per year and whether FRA has inspect-
                                                                 contracts for the Ready-Reserve Fleet.
ed alternate rail routes, should their use be necessary.

                                                                 zMonitor the Coast Guards Deepwater acquisition project
zAssess the effectiveness of the Maritime Administrations       for modernizing or replacing ships, aircraft and support
internal controls ensuring accuracy of payments under the        systems.
Maritime Security Program.

Corporate Management Goals


zAssist DOT financial managers in correcting material            zAssess the potential for reducing health-care costs in the
weaknesses in accounting systems to achieve unqualified,         U.S. Coast Guard through lower-cost initiatives.
or clean, audit opinions on financial statements.
                                                                 zMonitor FAAs progress in developing new personnel-
zAudit the Intelligent Transportation System program and         management systems addressing hiring, training, compen-
its criteria, oversight and spending.                            sation and location of personnel.


zDetermine the status of previous recommendations con-           zReview FAAs efforts to implement its Acquisition
cerning DOTs rulemaking process; identify ways to               Management System.
decrease the length of time DOT takes to issue rules and
regulations.                                                     zReview FAAs cost-accounting system.



                                                             7
                         DOT agency must strengthen truck safety oversight
                         Increasing fatalities associated with large-truck crashes, high demand for
                         truck drivers and enormous industry growth require a motor-carrier safety
                         oversight agency with a clear safety mission, free of competition with other
                         missions, the Inspector General testified before the Senate Commerce,
                         Science, and Transportation Committee. His remarks reflected a recently
                         completed OIG audit (TR-1999-091). Its objective was to determine the
                         effectiveness of the Office of Motor Carriers (OMC) safety program, and
                         whether such oversight would be more effective if OMC's functions were
                         transferred from FHWA to another agency. We concluded OMC was not
                         effective in ensuring safety compliance and that the OMC enforcement pro-
                         gram did not adequately deter noncompliance. We recommended stronger
                         enforcement and data improvements. The call for improved trucking safety
                         has the support of Congress and the Secretary of Transportation. On May 25,
                         the Department launched an initiative with the goal of reducing fatalities by
                         50 percent in 10 years.


          Aviation safety inspection expertise, independence,
          reporting needs improvement

          Our review of FAA's National Aviation Safety Inspection Program (NASIP) concluded
          (report AV-1999-093) that FAA should strengthen the NASIP process to ensure reports pro-
          vide accurate, reliable indicators of safety compliance by inspected entities and result in
          effective corrective actions. We recommended strengthening the NASIP process in team
          expertise, independence, identifying and correcting systemic weaknesses at inspected enti-
          ties, and report quality. We found the resolution process leading to the final NASIP report
          on ValuJet did not result in an accurate indicator of ValuJet's compliance with Federal avia-
          tion regulations as of the February 1998 final report date. FAA concurred.


Undercover sting results in fines, restitution

A firm that sold unapproved and substandard helicopter parts was fined and its principals sen-
tenced to fines and probation terms. Pacific Air Logistics, Inc. and its ownersBill Neighbors,
Michael Neighbors, and Mark Turnerwere sentenced in Federal court in Los Angeles. The firm
sold several substandard helicopter tube assemblies to Federal agents in an undercover storefront
operation. Pacific Air Logistics provided false certificates of conformance stating the parts were
new and met makers specifications. The firm was fined $48,000; Bill Neighbors, Michael
Neighbors, and Mark Turner each were sentenced to 2 years probation and fined $10,000, $5,000,
and $1,000 respectively. The defendants were also ordered to pay restitution totaling $13,100 to
2 aviation companies that bought parts from the firm.


                                                8
                                                                         April 1999

Tracking the Year-2000 technology challenge in DOT

We provided our observations on the FAA and DOT Year-2000 computer programs at a hear-
ing before the House Committee on Government Reform's Subcommittee on Government
Management, Information, and Technology and the House Committee on Science's
Subcommittee on Technology. A report was issued based on this information (FE-1999-082).
DOT has more than 600 mission-critical systems, about half of which had Year-2000 problems
needing repair. OIGs level of confidence that such mission-critical systems as air traffic con-
trol would be Year-2000-compliant was much higher at the time of the testimony than it had
been a year earlier. We recommended that FAA require key aviation industry segments to cer-
tify Year-2000 compliance and that FAA develop a compliance policy for U.S. carriers or U.S.-
foreign carrier partners flights to other countries.


         Coast Guard can reduce future funding for
         environmental restoration work

         The Coast Guard made progress cleaning up its contaminated facilities. The estimated cost to
         clean up its backlog of polluted sites decreased from $132 million at the end of FY 1993 to $60
         million at the end of FY 1998. The declining backlog of such projects should let the Coast
         Guard reduce future budget requests for environmental restoration. The audit (MA-1999-083),
         found the Coast Guard's evaluation process did not track environmental findings and deficien-
         cies and the Coast Guard did not complete evaluations of all units every 3 years. We recom-
         mended future budget-trimming to reflect backlog reduction, better tracking and timely evalu-
         ations.


Road contractor to pay $1 million
in Puerto Rico highway fraud

A major contractor in Puerto Rico and its president pleaded guilty to making false
statements in connection with Federal highway work the contractor was to perform.
Redondo Construction Company and its president, Jorge Redondo, had been indict-
ed for fraud and conspiracy. It was alleged the company claimed excavation work
on a project had been completed, when it had not been. RCC will pay $1 million
in fines and restitution. The Federal Highway Administration will bar the firm from
future work on Federally financed highway projects for 3 years, though contracts
in force at the time of the plea continued. Jorge Redondo will be sentenced to 6
months in a halfway house and 6 months home confinement.

                                                   9
Former transit manager sentenced
in $300,000 embezzlement scheme

Jackie Headley, former assistant manager of the Tuscaloosa, AL Transit
Authority, was sentenced to a 2-year term in connection with embezzle-
ment of Federal Transit Administration grant funds. It was alleged
Headley had conspired with the authority's former manager to skim
approximately $300,000. They employed such methods as overpayment
of salary and bonuses, unauthorized insurance and pension coverage,
kickbacks from contractors, and personal use of a transit authority credit
card. Headley was ordered to pay $82,000 in restitution. As a result of
the investigation, $288,287 in embezzled funds was returned to the tran-
sit authority.


FAA contractors executive jailed,
required to pay $59,000

An executive for a firm that contracted with the FAA was sentenced to 1
year and 2 months imprisonment after pleading guilty to filing a false
income-tax return. Richard S. Quigg of Woodbridge, VA, a vice president
of Diez Management Systems, Inc. was investigated by OIG, the IRS and
the Defense Criminal Investigation Service following alleged irregulari-
ties in execution of a Diez contract for printers used by air traffic con-
trollers. Quigg also was ordered to pay a fine of $5,000 and make $54,000
in restitution.



Engineer jailed in corruption case

Joseph Monteiro of Marion, MA, a former engineer for the Massachusetts
Bay Transportation Authority, was sentenced to 5 months in jail and a
$15,000 fine. Monteiro was MBTA's resident engineer from 1995 to 1997
on the Braintree Yard contract, part of the FTA-funded Old Colony
Railroad restoration project. Monteiro pleaded guilty to soliciting,
demanding and obtaining things of value from Modern Continental
Construction Company, Inc., the contractor over which Monteiro had over-
sight. Last August, the firm agreed in a settlement to pay $500,000 and its
former vice president pleaded guilty to related charges and was sentenced
to 1 year and 10 months probation and a $10,000 fine.

                 10
                                                                  April 1999

U.S. Coast Guard abandoned-vessels program needs emphasis

The Coast Guard's Eighth District, headquartered in New Orleans, accounts for 59 percent of
abandoned vessels nationwide. The district's inventory of abandoned vessels was inaccurate,
abandoned barge owners were not identified or contacted to encourage voluntary removal, and
fines meant to deter and punish violations were not assessed (report MA-1999-092). Further,
trust funds were not used to clean up and remove barges posing environmental threats. We rec-
ommended the Coast Guard call for a district inventory and assessment of the condition and con-
tents of abandoned barges, contact owners to encourage voluntary remediation, initiate civil
penalties and mitigation when owners do not act, and clarify trust-fund policy. The Coast Guard
concurred with all recommendations except inventory and assessment of barges' condition and
contents. It suggested instead working with state and local agencies to achieve similar objec-
tives. We found this responsive.


General manager of airport security firm imprisoned

Guillermo Blanco, the former general manager of a contract airport security firm in Miami, FL,
was ordered imprisoned more than 5 years following guilty pleas. Blanco falsely claimed the
firm he worked for had done background checks on employees granted access to secure areas
at Miami International Airport. He also admitted to transporting a minor across state lines for
illegal sexual activity. In a merged sentencing addressing both pleas, Blanco was handed con-
current 5-year and 5-year, 3-month sentences. He also was ordered to pay $5,200 in restitution
and $2,700 in special assessments. The cases were investigated by OIG, assisted by the FAA
Security Division in Miami, and the FBI.




                                           11
Boston Central Artery project should reimburse, or use,
$150 million in insurance payments

Our report (TR-1999-104) disclosed that the Massachusetts Highway Department used more Federal
funds than necessary to pay estimated workers' compensation and general liability premiums. Between
1992 and 1997, the Massachusetts Highway Department paid estimated workers compensation and gen-
eral liability premiums totaling $368.7 million. Insurance company payroll audits show those premiums
exceeded necessary amounts by $166.7 million, the Federal share of which is $150.0 million including
interest. The excess payments are invested in trust accounts owned by the Massachusetts Highway
Department. When the insurance program ends in 2017, 13 years after the scheduled end of construc-
tion, the Massachusetts Highway Department projects that the trust accounts will hold assets of $826
million. The 1998 finance plan for the project relies on future value of the trust accounts to keep the
final cost of the project at $10.8 billion. Federal policies require recipients of Federal highway grants to
use the money for project-related purposes. Therefore, the excess premiums and interest must be applied
to current project costs or the funds returned to the U.S. Treasury. FHWA agreed to take action.

           FHWA: Improve Turner-Fairbank Research Center acquisition process

           We identified systemic weaknesses in the Turner-Fairbank Highway Research Center's internal
           controls for monitoring interagency agreements and contracts. These largely concerned lack of
           support or documentation for increases in the value of contracts. During the period covered by
           our review (MA-1999-095), the center had technical responsibility for $259 million in acquisi-
           tions, primarily authorized by the Intermodal Surface Transportation Efficiency Act of 1991.
           Almost 60 percent of the acquisitions were accomplished through interagency agreements and
           contracts. The remainder came through small purchases, grants, cooperative agreements, set-
           asides, and allocations to states. A 1988 FHWA internal review of contracting at the center dis-
           closed similar weaknesses. The OIG and FHWA reviews and the fraud that occurred in the past
           year underscore need for improved internal controls at Turner-Fairbanks. FHWA agreed with our
           report and identified corrective actions.
FAA should move quickly on increased oversight
of the air tour industry

We reviewed FAAs implementation of nationwide regulation and surveillance for the air tour indus-
try, including creation of an accurate database (report AV-1999-099). Existing FAA regulations affect-
ing air tours over the Grand Canyon and Hawaii have prompted a reduction in accidents and fatali-
ties. Since special regulations went into effect for those two locations, the Grand Canyon has had no
air tour accidents over the regulated area. Hawaii's air tour accidents dropped from 24 to 3 and fatal-
ities, from 24 to 6 for comparable time periods before and after the special regulations. One accident
in Hawaii with 10 fatalities occurred in September 1999, after this report was released. Though FAA
had a self-imposed December 1997 deadline for implementing a nationwide regulation, the work is
not yet complete. In our opinion, this work should be moved forward quickly.
                                                     12
                                                                          May 1999

Weaknesses identified in FAAs data processing computer security

We identified weaknesses in FAA's administration of access to DOTs ICE-MAN computer
system (report FE-1999-103). Improved procedures and controls were needed to deny access to
the estimated 676 individuals, mostly contractor employees, no longer working for DOT but
retaining access to the system; a database of authorized users that contained incomplete and inac-
curate information; the ability to use account information for such improper purposes as pre-
venting authorized users access; and users' ability to gather sensitive network information, trace
message routes through the network, and forge messages. We did not identify any abuse or
improper use of the data center information. However, control weaknesses in the Departmental
Accounting and Financial Information System led to two recent embezzlements investigated by
OIG. Those weaknesses were addressed in a separate investigation report.



FAA: Ensure compliance with radio
communications regulations

We completed a review of DHL Airways Inc.'s flight radio communications in Mexico
(report AV-1999-100). DHL was alleged to have violated Federal Aviation Regulation
Part 121.99 during flights to Mexico through a communications gap of approximately
200 miles of airspace between DHLs aircraft and its air-carrier dispatch office.
Inspectors in FAA's district office in Louisville, KY conducted en-route inspections and
confirmed that a communications gap existed, but concluded the air carrier still met the
intent of the regulation. However, we obtained an interpretation of the regulation from
FAA headquarters, which concluded DHL Airways is not in compliance with the regu-
lation. We recommended that FAA ensure compliance and issue a bulletin to its district
offices to check for this problem at other domestic air carriers. FAA agreed.

    FAA should expand scope of contract tower study

    The Federal Aviation Administrations contract tower program saves the agency about
    $250,000 per tower annually. In light of the program's success, Congress last year directed
    FAA to study whether additional savings could be achieved by expanding the program to
    other FAA-operated air traffic control towers "without radar capability." FAA currently oper-
    ates 70 visual-flight-rules towers that are not equipped for instrument flight operations. FAA
    is reviewing 14 of the 70 visual-flight-rules towers. The remaining 56 towers are not includ-
    ed in the study because FAA defined certain visual monitors as radar equipment. We do not
    agree with the exclusion (report AV-1999-094) and recommend that FAA expand the study's
    scope to cover all 70 towers. Since our report was released, Congress has directed OIG to
    further study staffing at contract towers and the feasibility of expanding the program.

                                                 13
 Californian sentenced for falsely marking gas cylinders

  A California man who admitted violating safety regulations governing compressed-
 gas cylinders was handed a 6-month community corrections sentence May 20 in
 Federal court. Mark Brown, formerly with Brown's Welding Supply of Pomona,
 CA, was shown leniency because he was terminally ill. He pleaded guilty in
 November 1998 after it was alleged he had removed identification and test numbers
 from hundreds of compressed-gas cylinders and then stamped the cylinders with
 numbers indicating they had been specially tested for resistance to cracking and
 explosion, when the tests had not been done. OIG conducted this investigation with
 the assistance of RSPA.



            Montana Department of Transportation
            suspends highway contractor

            The Montana Department of Transportation suspended a Billings firm
            and its principal from bidding or participation in new state highway con-
            tracts for 6 months. Ronald Omo and Omo Construction, Inc. were sus-
            pended following an investigation by OIG and the FBI, which spurred an
            inspection by the Montana DOT and the Federal Highway
            Administration on a Federally funded project the Omo firm was con-
            tracting. The inspection revealed construction discrepancies posing
            potential hazards to the public and Montana DOT maintenance person-
            nel.




DOT minimizes uncollectable debt

We reviewed DOT non-tax delinquent debt, defined as any debt or claim that is due
the Federal government other than taxes under the Internal Revenue Code. DOT
accurately reported its non-tax delinquent debt of $148 million for Fiscal Year 1997.
We reviewed 24 DOT debt case files totaling $18.2 million, accounts-receivable
aging reports, and other reports to ensure the debt was valid and accurately reported
(report FE-1999-096). About 50 percent of the $148 million debt was exempt from
referral to Treasury because the debt was in bankruptcy, the debtor had an active pay-
ment plan agreement with DOT, or the debt had been referred to the Department of
Justice for litigation. We also found adequate debt-management practices were in
place to ensure uncollectable debt was minimized. The review was a government-
wide project by the President's Council on Integrity and Efficiency.

                              14
                                                        May 1999

          Other work by Office of Inspector General

                personnel in April and May:


      oMore than 100 letters were mailed to agencies and grantees involved
in Federally funded transportation programs in the southeastern United
States, advising them of OIGs efforts against contract and grant fraud. A
similar mailing was planned for the northeastern U.S.

    oThe Inspector General and several staff members observed testing at
Amtraks high-speed train test site outside Pueblo, CO.

      oOIG staff participated in several One DOT events aimed at making
the Transportation Department more interactive among its administrations
and more useful to the public. The work included creation of a cross-modal
functional directory of DOT staff in the northeastern U.S. The directory can
be used to provide improved service to the public.

      oA team of educators including an OIG auditor and a staffer for the
Bureau of Transportation Statistics taught a course in auditing Government
Performance and Results Act implementation. Ultimately, more than 230
DOT employees took the course.




                                    15
   Eight sentenced in $1.7 million highway construction fraud

   Seven associates of two highway construction firms were sentenced following their guilty pleas in a
   scheme to defraud the Illinois Department of Transportation. Peter Palumbo and his sons, Joseph and
   Sebastian, were sentenced as owners of Palumbo Brothers Inc. and Monarch Asphalt Co. Palumbo
   Brothers admitted to bribing an Illinois transportation department engineer, and to collecting more
   than $1.7 million through false claims including phony invoices. Peter Palumbo was ordered jailed
   for a year and to serve 3 months' home detention. Each of his sons was ordered imprisoned for 1 year
   and 9 months. Each also face 350 hours of community service and $250,000 fines. Asphalt plant
   superintendents for the two firmsDaniel Ferrarini and Barry Brocklandwere also sentenced to 10
   months in jail and a $1,000 fine and 3 years probation, respectively. Gerald McGreevy, an asphalt
   plant operator for Palumbo Brothers, was handed 6 months in jail and a $1,000 fine for his involve-
   ment. Also sentencedto 1 year and 9 months' imprisonmentwas Kelson Abdishi, a highway engi-
   neer who participated in the scheme. Abdishi forfeited his $664,527 state pension.




Sale of unapproved parts from destroyed
Gulf War aircraft halted
Aircraft-parts importer Robert Mansfield was sentenced in Chicago for the theft and attempted
resale of substandard aircraft parts taken from two aircraft destroyed during the Gulf War. Also
jailed in connection with the case were Dennis McCormick and Fahli Al-Rashidi, for theft and
attempted resale of the cannibalized parts. Mansfield, owner of Navaero, Inc., was sentenced to
1 year and 3 months' imprisonment, a $7,370 fine and 3 years' supervised release. McCormick
was sentenced to 3 months detention with an electronic monitor, 3 years probation and payment
of $3,600 in restitution. Al-Rashidi, a citizen of Kuwait, was sentenced to 45 days in jail, 2 years
supervised release, and to pay $3,600 in restitution. OIG, the FBI, the U.S. Customs Service, the
U.S. Air Force Office of Special Investigations, and New Scotland Yard of London investigated.




                                        Truck driver involved in fatal accident sentenced

                                        A truck driver who caused a fatal traffic accident while driving under
                                        the influence of methamphetamines was sentenced in Wichita, KS to
                                        10 months in jail. Sherri L. Weldon, formerly a driver with the S&J
                                        Trucking Company of Leon, KS, was handed the term in Federal court
                                        for making false statementsspecifically for falsifying her medical
                                        qualification records, drug-testing records and employment applica-
                                        tion. Weldon was separately convicted of vehicular homicide in con-
                                        nection with the accident. The investigation was a joint effort by OIG
                                        and the Federal Highway Administrations Office of Motor Carriers.
                                                    16
                                                                            June 1999

Distributor sentenced in aviation parts scheme

The president of an electronics firm was sentenced to 6 months' incarceration and fined
$2,000 following his guilty plea in connection with the sale of adulterated aviation elec-
trical connectors. Emil Stern of Southampton, PA and his company, Secom Electronics
Corp. of Burlington, NJ had entered guilty pleas to mail-fraud charges in March. Stern
must serve 3 months at a Federal community corrections facility and 3 months in home
confinement. Stern also was placed on 5 years' probation; his company must pay a
$32,000 fine and was placed on a year's probation. Stern and Secom also paid civil resti-
tution of $55,000.




                          Drug-tester jailed for falsifying
                          truck drivers' test results

                          Sherrie L. Kaneaster, who owned and operated a DOT-approved drug-
                          testing facility, was sentenced in Portland, OR Federal court for provid-
                          ing false results on drug tests required of truck drivers by the Federal
                          Highway Administration's Office of Motor Carriers. Kaneaster had ear-
                          lier pleaded guilty to making false statements. She was sentenced to 6
                          months in a halfway house, followed by 3 years' probation. This case was
                          investigated by OIG with the assistance of FHWAs Office of Motor
                          Carriers.




Sentencing in $193,000 fuel-tax evasion scheme

John J. Enright of Deptford, NJ, was sentenced in Camden, NJ Federal court to 4
months' home confinement, 5 years' probation, and a fine of $3,000. In June 1997,
Enright admitted to tax-evasion for his role in a scheme to evade $193,000 in Federal
motor-fuel excise taxes. The prosecution resulted from an undercover investigation by
a task force including agents of the IRS, the FBI, and OIG.




                                                 17
DOT graphics services: enforce, or change, existing policy

DOT and its operating administrations spent about $2.4 million for graphics serv-
ices in FY 1998. Some operating administrations have contracted for services out-
side the Department. Departmental policy calls for use of TASC, a division of
DOT, unless an analysis demonstrates that the use of non-TASC sources is bene-
ficial to the Department as a whole. None of the operating administrations getting
graphics services elsewhere had completed the required analysis or obtained prior
approval of the Deputy Secretary before going outside TASC. Our audit of
graphics spending by four operating administrations (MA-1999-106) showed
three may not be getting the most cost-effective service. We recommended the
Deputy Secretary direct TASCs board of directors to determine whether the
departmental policy requiring the use of TASC for graphics services should be
enforced or changed.



          False FAA medical certificate results in state conviction

          Robert Audley of Bow, NH pleaded guilty in state court in Concord to tamper-
          ing with public records. Audley was fined $2,000 and placed on a year's unsu-
          pervised probation. In October 1998, a helicopter piloted by Audley crashed.
          During an investigation of the accident, Audley presented FAA inspectors with
          a falsified medical certificate.




                                              18
                                                         June 1999

           Other work by Office of Inspector General

                  personnel in June and July:


     oOIG agents made fraud-awareness presentations to 300 transit
authority representatives.

      oOIG staff met with representatives of the National Academy of
Sciences to discuss ongoing OIG work to assess DOT performance measures
and data.

     oThe Inspector General and two OIG staff members traveled to
Nigeria as part of an invited DOT team offering expertise to the Nigerian
government on auditing and transportation issues.

      oOIG investigative staff offered expert commentary on unapproved
aircraft parts issues at a convention of the Airline Suppliers Association and
on hazardous materials and trucking-regulation issues before the Northern
Virginia Environmental Task Force.




                                     19
                 Federal charges lodged in ValuJet crash case

                 SabreTech, Inc., an aircraft repair and maintenance business, and three of its employees
                 were indicted by a grand jury in Miami, FL on Federal charges including conspiracy,
                 making false statements, and illegally transporting hazardous materials. The firm also
                 was charged with causing placement of a destructive device in an aircraft and making an
                 aircraft unworkable and hazardous. The charges stem from the May 11, 1996 crash of
                 ValuJet Airlines flight 592 in the Florida Everglades. The National Transportation
                 Safety Board determined that the cause was a fire in improperly handled oxygen gener-
                 ators (pictured here) carried in the hold. All 110 people on board were killed. Charged
                 were SabreTech and its maintenance director Daniel Gonzalez and mechanics Eugene
                 Florence and Mauro Valenzuela.




FAA: runway safety program needs continued attention

Our analysis of FAA's runway safety program (report AV-1999-114) showed that the program has not
achieved its goalto reduce near-collisions on airport runways, also called runway incursions. The
upward trend in runway incursions continued with 325 incursions in 1998, representing an 11 percent
increase over 1997, and attributed chiefly to pilot error. While FAA's 1998 action plan laid a sound foun-
dation for reducing runway incursions, there has been limited progress implementing it. Further, FAA
has not identified all actions and funding necessary to completely implement the plan. The Airport
Movement Area Safety Systemwhich was developed to alert air-traffic controllers to potential colli-
sions on airport runwayswill not meet its August 2000 full-deployment date. Our recommendations to
FAA included establishing a central authority for the action plan, finalizing standard operating procedures
and identifying and setting aside funds to carry out the plan.




                                                 20
                                                                                July 1999

Royal Caribbean Cruise Lines to pay $18 million
for illegally dumping waste


Royal Caribbean Cruises, Ltd. agreed to pay a record $18 million criminal fine. The passen-
ger line pleaded guilty to multiple felony counts of dumping waste oil and hazardous chemi-
cals into U.S. waters and lying to the Coast Guard. The agreement, filed in jurisdictions where
the alleged dumping occurred including Anchorage, Miami, New York City, Los Angeles, the
U.S. Virgin Islands, and Puerto Rico, is to acknowledge the routine dumping of waste oil and
hazardous chemicals from such shipboard services as photo processing and dry cleaning. The
fine was the largest ever paid by a cruise line in connection with polluting U.S. waters.


      MARAD: reassess risk on Massachusetts Heavy Industries
      Title XI loan guarantee for shipyard

      We prepared this report (MA-1999-115) because Massachusetts Heavy Industries, Inc. (MHI) did
      not make the June 1999 "interest-only" payment on the MARAD-guaranteed loan for its shipyard,
      requested approval of a 6-month extension to make that payment, and had not secured a shipbuild-
      ing project. The risk of default by the corporation materially increased. We recommended that
      MARAD reassess the risk-factor rating for MHI's loan guarantee and make the required adjustment
      to the subsidy rate. We also recommended that MARAD ensure it had all the information required
      by the Title XI program to protect the interests of the United States from default prior to making a
      decision on MHI's request to defer its June 1, 1999 payment. A separate update report (MA-1999-
      127) was issued in September to reflect further developments (see page 28).




                   Amtrak: bottom line improves,
                   but self-sufficiency by 2003 difficult

                   Amtrak's financial outlook is improving but challenges to self-sufficiency remain.
                   Amtrak's system-wide passenger revenue and ridership continue to grow and Amtrak's
                   operating loss of $483 million for the first 6 months of 1999 was slightly less than that
                   predicted in its annual plan. However, Amtrak's management must stay focused on
                   achieving the cost-containment goals set forth in its strategic business plan. Our review
                   (CE-1999-116) identified $695 million in potential additional cash losses Amtrak could
                   face if no corrective actions are taken to compensate for the risky elements of its plan.
                   We also concluded that Amtrak's capital funding is likely to fall short of minimum needs
                   in 2001 and 2002, and recommended that Amtrak identify ways to cover its minimum
                   needs before approving spending on projects beyond those minimum needs.
                                                     21
False NHTSA documents spur jail terms

Kevin Anderson, charged in a truck-smuggling scheme, was sentenced in Toledo, OH to
7 months in jail, 24 months' supervised release, and to pay $2,200 in restitution.
Anderson's father, James S. Anderson and his brother, Mark D. Anderson, were sen-
tenced the previous week to 3 years and 5 months imprisonment and 1 year and 9
months imprisonment, respectively; they must pay a total of $42,700 in restitution. The
Andersons were charged with 10 others in a scheme to smuggle truck tractors into the
U.S. from Canada that did not comply with standards set by the National Highway
Transportation Safety Administration. The enterprise purchased the tractors in Canada
using Colombian drug money, and was in part an attempt to launder those funds.
NHTSA certifications were forged so the vehicles could clear U.S. Customs.



                 FAA: Effective use of explosives-detection systems
                 needed for checked baggage

                 The FAA oversees multiple, integrated systems meant to ensure the security of
                 about 1 billion pieces of baggage on flights within the U.S. each year. Our report
                 (AV-1999-113), which was not made public in full form due to its security sensi-
                 tivity, generally concluded that our tests of automated passenger prescreening
                 systems worked as intended; however, there were some weaknesses in use of
                 explosives-detection equipment and some passengers were not properly
                 processed for additional security measures. In some of FAAs own tests, FAA
                 staff doing the testing were recognized by airline employees, defeating the under-
                 cover nature of the testing.




Federal jury convicts polluter on 10 felony counts

Following a 2-week Federal trial in Jackson, MS, John R. Cooke, a shareholder in
Texas-based M&S Petroleum, Inc. was found guilty of 10 counts of conspiracy, mak-
ing false statements, and violating the Clean Air Act and Clean Water Act. The inves-
tigation, conducted jointly with the EPA and the FBI, uncovered a scheme in which
Cooke and others shipped and stored pollutantsincluding benzeneand discharged
them into the Mississippi River.




                                         22
                                                                            July 1999

Export manager admits falsifying cargo documents

Ronni Jensen, export manager for Shipco Transport, Inc., of Hoboken, NJ, pleaded guilty in Newark
Federal Court to making false statements on export documents for an aircraft-parts shipment to the
Middle East. The charges stemmed from an undercover transaction by the U.S. Customs Service that
led to a joint investigation with OIG. In January, Jensen agreed to accept a package of aircraft parts
from a New Jersey parts broker for shipment to a freight forwarder in Dubai. The undercover Customs
agent informed Jensen that the final destination of the parts was Iran, a country under a U.S. trade
embargo, and asked that the shipper's name be kept off any export documentation. Jensen arranged
the shipment and supplied a certification falsely claiming compliance with Shipco's FAA-approved
security requirements. Jensen also falsified the airway bill and air cargo manifest.




  FHWA contractor sentenced in gratuity case

  Ajay K. Rathi, a former contractor for Lockheed-Martin, was sentenced July 15 to pay a fine of
  $10,000, perform 100 hours of community service and serve a year's probation. Rathi previously
  pleaded guilty in Federal court to charges of conspiracy to submit false claims and to paying
  unlawful gratuities to Albert Santiago, an FHWA official. Rathi was among conspirators who
  bribed Santiago and were reimbursed through false claims to FHWA. Rathi worked at the Oak
  Ridge National Laboratory in Tennessee, creating traffic-flow software for FHWA.




 Fire-protection firm owner pleads guilty in cylinder-testing scam

 Charles Sheffield, owner of City Fire Equipment Co., Inc. of Gulfport, MS, pleaded guilty in Biloxi
 Federal court to violations of hazardous-materials safety regulations. He was sentenced to a $2,500
 fine and 3 years probation, as was the firm. Sheffield was also barred from future work in the cylin-
 der-testing business. The company inspected and certified compressed-gas cylinders used by the
 U. S. Coast Guard and several area fire departments to hold such gases as oxygen and carbon diox-
 ide. Federal law requires testing of the cylinders to ensure they will not explode when filled with
 compressed gases. Sheffield falsified cylinder-inspection records required by the DOT's RSPA.
 The cylinders were stamped to indicate they had been tested, when in fact the required tests had not
 been done.




                                                23
    Phony aircraft mechanics' certification spurs imprisonment

    Two central Florida men who falsified certifications of aircraft mechanics they employed were
    ordered imprisoned and to pay restitution by a U.S. District Court judge in Orlando. Anthony R. St.
    George of Osteen, FL and George E. Allen of Port Orange, FL were convicted of conspiracy and
    making false statements. St. George was sentenced to 2-1/2 years imprisonment and 3 years super-
    vised release and Allen, to a 10-month term and 2 years supervised release. The men falsified FAA
    documents affirming the companys employees had been tested, when some were issued temporary
    mechanics certificates without testing. Mechanics so certified were able to supervise and sign off
    on the work of non-certified employees on both commercial and private-industry-owned planes.
    FAA is retesting some 2,000 aviation mechanics earlier certified via St. George Aviation.




Contractor employee gets 3 years, 10 months for bribery

Paul Kinter of Fairfax, VA, was sentenced to 3 years and 10 months' incarcera-
tion and 3 years' supervised release for bribery and conspiracy. Kinter was a
former employee of government contractor RGI, Inc. of Falls Church, VA. An
investigation revealed Kinter's involvement in a scheme to pay off several par-
ties, including Kinter, in return for assurances the contractorWashington Data
Systems of Landover, MDwould get a $57 million computer maintenance
contract with the Internal Revenue Service. The scheme included improper
billing of some of the bribe payments to RGI's overhead accounts, where they
were eventually charged against FAA accounts.



    FAA: Continue training improvements to save money, time

    We found FAA has taken steps to reduce the time and expense of certifying maintenance techni-
    cians. For example, newly hired technicians are screened for math and electronics knowledge
    before hiring, rather than being required to take basic math and electronics courses after hiring.
    However, our audit report (AV-1999-124) also concludes that FAA needs to further improve train-
    ing and certification by using more cost-effective training methods. Specifically, there was on-the-
    job training for only 38 of the 148 systems that require standardized training packages. Also,
    greater use of computer-based instruction would reduce the travel and overtime costs of sending
    technicians to the FAA Academy. We recommended that FAA develop and use standardized on-
    the-job training packages, ensure that technicians receive such training after getting formal train-
    ing, and develop a short-term plan to convert courses to computer-based instruction where possi-
    ble.
                                                 24
                                                                      August 1999

    Repair station owner pleads guilty to making false statements

    Bo Baker, owner of 3D Industries, Inc., pleaded guilty in Dallas Federal court to
    charges of making false statements and possession of forged securities. During an
    inspection by the FAA, Bakerwhose firm was an FAA-certified repair stationpre-
    sented false documentation misrepresenting the origin of 15 counterfeit jet engine
    parts. The forged-security charge stemmed from alteration of a check to show 3D
    Industries as the recipient, when in fact the check was intended for another aviation
    company in Dallas.



FTA: Verify savings before shifting funds
to second phase of Hudson-Bergen light-rail project

The Hudson-Bergen light-rail transit system is being built in northern New
Jersey. It is expected to cost $2 billion and be completed in three phases. Our
baseline audit (report RT-1999-123) is a first step in tracking the projects
progress in meeting cost and schedule goals. Though Phase 1 of the project is
expected to come in below original cost estimates due to lower financing costs
and a change in route, we recommended that the Federal Transit Administration
require resolution of pending issues before shifting any saved Phase 1 funds to
Phase 2 accounts. Among these issues are possible higher costs New Jersey
Transit will face meeting Federal Transit Administration and Federal Railroad
Administration safety regulations for light-rail trains that share track with rail-
roads, as is the case with the Hudson-Bergen system.



 FAA: Labor cost-reporting system adequate for financial reporting

 The FAA labor system for facilities and equipment projects provides adequate support to make rea-
 sonable estimates of labor costs for financial statement reporting. The audit did not address whether
 FAA used appropriate methodologies to accumulate and assign costs for cost-accounting. In our report
 (FE-1999-119) we reviewed $9 million in labor costs recorded on 36 facilities and equipment projects
 from $425 million in the work-in-process account, and found a net understatement of about $55,000.
 Although the understatement was insignificant, we found the labor system could produce more accu-
 rate results if FAA ensures that managers, supervisors, and employees are aware of their responsibili-
 ties and properly use the labor system.



                                                      25
Gasoline vendor pleads guilty to HAZMAT violations

Alberto Perez of Hialeah, FL pleaded guilty in Miami Federal court to intrastate
transport of hazardous materials in violation of Federal laws. Between November
1998 and May 1999, Perez had been cited by state regulators several times for mov-
ing gasoline without proper packaging, shipping papers, placards, or emergency
response information. Because of the safety threat posed by Perez' practices and his
repeated violations, Federal officials stepped in. OIG investigated with the assistance
of the Office of Motor Carriers, the Hialeah police and fire departments, and the
Florida Department of Transportation.




           FAA employee sentenced in travel-voucher fraud

           A sentence of 2 years' probation and an order to pay $4,300 in restitution were
           levied against Larry A. Bruce, an FAA civil aviation security liaison officer, in
           Miami, FL Federal court. Bruce, alleged to have filed false travel reimbursement
           claims totaling $4,300, also was ordered to pay a fine of $2,000. The claims in
           question were filed between October 1997 and January 1999. Bruce retired from
           the FAA in April 1999 while under investigation by OIG and the FAA.




Van line owner pleads guilty to fraud, hiring illegal aliens

A citizen of Israel who operated a Pembroke Park, FL-based moving company plead-
ed guilty to charges of wire fraud, mail fraud, hiring illegal aliens, conspiracy, and vio-
lating Federal transportation laws. Yaron Tishby, president of All American Van Lines,
allegedly instructed his crews to offer artificially low estimates to customers, load
customers goods and then demand payment in cash. If customers refused to pay
unexpectedly high bills, their goods would be stored, unprotected from damage or
theft. Customers were not informed of a regulation allowing them return of their prop-
erty if they paid 110 percent of the original estimate. Tishby faces up to 17-1/2 years
imprisonment and fines of up to $250,000 for each count except the illegal alien
charges, which carry fines of up to $3,000 for each illegal alien employed.




                                        26
                                             August 1999

        Other work by Office of Inspector General

          personnel in August and September:


      oOIG investigative staff offered expert commentary on transporta-
tion investigations before the American Association of State Highway
and Transportation Officials audit committee and on fraud awareness
before the International Union of Operating Engineers.

     oAn OIG expert spoke on trends in railroad safety before the annu-
al meeting of the Transportation Research Forum.

     oAn OIG investigations staff member trained 9 colleagues in
responding to incidents involving blood-borne pathogens.

     oAn OIG auditor was mobilized, as part of the DOT Emergency
Response Team, to assist victims of Hurricane Floyd.

       oAs part of Hispanic Heritage Month at DOT, OIG cosponsored
with the U.S. Coast Guarda seminar on the value of foreign-language
skills. OIG also provided simultaneous translation into Spanish of the
remarks by Deputy Assistant to the President Janet Murguia.




                                   27
FAA must take leadership role ensuring safety
in U.S.-foreign code-share flights

"Code sharing," the practice of U.S. airlines ticketing their passengers onto foreign-owned airlines to complete
a trip, has more than tripled in the past 5 years, from 53 such agreements to 196 as of last May. However, with
that growth, U.S. carriers now are partnering with carriers in regions of the world where safety oversight and
track records are not as strong as those of the United States. Currently, DOT's Office of the Secretary must give
approval for code-sharing requests made by domestic-based airlines. However, to date, safety has not been a
major factor in the approval process. FAA has only advised OST whether the government in the home nation
of a proposed code-share partner has oversight that complies with international safety standards. In our report
(AV-1999-138) we recommend that FAA require domestic airlines entering such partnerships to inspect and
certify safe practices by their foreign partners and determine and review the standards used.


             Maker of aircraft hoses sentenced in non-conforming parts case

             A Florida maker and distributor of aircraft hoses and its vice-president were fined and ordered
             to replace some 1,900 substandard aircraft hoses after pleading guilty to making false statements
             about the regulatory conformance of products made at the firm. Some of the hoses move fuel or
             oil, and are considered flight-critical parts. Air-Pro Inc. will pay a fine of $200,000 and
             replace hoses worth an estimated $138,000. John Wilson, vice-president of Air-Pro, was fined
             $2,000 and must serve 18 months probation. The firm misrepresented the manufacture dates of
             hoses, failed to sanitize and test hoses used in breathing apparatus, and substituted material with
             a lower failure temperature for the material required on sleeves that protect hoses from chafing.
             James Harris, the firms quality-control manager, was sentenced in July to a fine of $1,500, to
             300 hours of community service and to 2 years' probation for making false statements.




                   Massachusetts Heavy Industries Inc.
                   Title XI shipyard loan guarantee is at risk

                   Events affecting Massachusetts Heavy Industries, Inc. (MHI)including a missed interest
                   payment, a contractor and subcontractors walking off the job, and a declaration that the gen-
                   eral contractor was in defaultreinforced our previously reported concerns about MARAD's
                   Title XI loan guarantee to MHI's shipyard (see page 21). The more recent developments
                   delayed shipyard completion for an indeterminate period and further increased the risk of
                   loan default by MHI. In our report (MA-1999-127) we advised MARAD to take immediate
                   action to protect the interests of the United States government and minimize potential losses,
                   becausein the event of default on the guaranteed loanthe United States government has
                   a first-priority lien on shipyard assets and property owned or acquired by MHI.
                                                      28
                                                       September 1999

   Wilson Bridge: Funding decisions critical to timely contract award

   We reviewed the project for replacement of the Woodrow Wilson Bridge over the Potomac River
   and reconstruction of 4 adjacent interchanges to assess costs and funding sources and legal and
   environmental issues. Our report (TR-1999-133) calculated the estimated cost of the project to be
   $2.1 billion, rather than FHWAs 1995-based estimate of $1.9 billion, due to increased costs and
   design changes. We also noted that project costs are likely to rise if construction on the new span
   does not begin, as currently proposed, late in the year 2000. A legal challenge by groups opposed
   to the scope of the project may cause such a delay. Failure to open the new bridge to traffic by the
   year 2004 is likely to require rehabilitation of the existing 38-year-old bridge to keep it in use until
   the new bridge is built. We also noted a current shortfall of up to $1.2 billion in financing for the
   proposed bridge, caused by lack of commitment of state funds. We recommended that Congress
   cap the total Federal funds that can be spent to build the new bridge.



             OIG review of dormant obligations frees $672 million

             As part of OIGs work to support the Chief Financial Officers Act, we reviewed
             some 63,000 line-items totaling $5.1 billiondormant for at least 18 months
             that were identified as obligations requiring payment at a future date. Closer
             review in conjunction with DOTs operating administrations showed that $672
             million of those dormant obligations no longer represented valid financial liabil-
             ities; as a result, those funds can be spent by DOT for other needs or returned to
             the U.S. Treasury. We recommended (report FE-1999-131) that the DOT chief
             financial officer require regular reviews of inactive obligations in the future.



OIG updates Congress on aviation Year-2000 issues

In its fourth Y2K-related testimony since February 1998 before the House Science Committees
Subcommittee on Technology and the House Government Reform Committees Subcommittee on
Government Management, Information and Technology, OIG updated aviation Year-2000 readi-
ness issues (report FE-1999-126). FAA has overcome schedule slippage to establish strong lead-
ership and to repair and replace its Host computers, to repair and install 152 mission-critical sys-
tems at more than 4,000 sites, and to live-test Y2K fixes in Denver. It needs to make sure local
adjustments to FAA computer programs dont countermand Y2K repairs. FAA should prepare for
unexpected Y2K-related contingencies. FAA may be pressed to confirm the Y2K readiness of
smaller domestic air carriers, and 53 foreign countries had not responded by August 31 to a sur-
vey on Year-2000 readiness. Policy on allowing or disallowing U.S.-based or code-share flights to
Y2K-uncertain nations should be set by October 15.


                                                 29
             Separate DOT agency needed for truck safety oversight
             Increasing numbers of deaths in large-truck crashes and enormous growth in the trucking indus-
             try require an oversight agency with safety as its overarching goal, the Inspector General testi-
             fied before the Senate Subcommittee on Surface Transportation and Merchant Marine. His
             remarks were based on the conclusions of OIG audit TR-1999-091. We concluded OMC, which
             has trended toward a more collaborative approach to oversight, was not effective in ensuring
             safety compliance and deterring violations. A minority of motor carriers repeatedly violate safe-
             ty regulations. OMC fines for noncompliance were sometimes absorbed as a cost of doing busi-
             ness, while the option of shutting down unsafe carriers was not pursued often enough. OMCs
             current structure within FHWA forces its safety mission to compete with FHWAs overriding
             infrastructure mission. We recommend a separate motor-carrier safety administration, outside
             FHWA. Such a step may help DOT achieve its goal, set in May, of reducing commercial vehi-
             cle-based fatalities by 50 percent in the next decade.


                       Two jailed in $77 million motor-fuel tax scam

                       A multi-agency investigation code-named "Red Daisy" spurred the sentencing of two
                       New York men on racketeering charges in connection with motor-fuel tax fraud.
                       Sentenced in Newark, NJ Federal court were Daniel Pagano of Monsey, NY and
                       Anthony Palumbo of Bronxville, NY. Pagano was sentenced to 8 years and 9 months
                       in prison followed by 3 years' supervised release, and a fine of $100,000. Palumbo
                       was sentenced to 3 years and 10 months' imprisonmentfollowed by 3 years' super-
                       vised releaseand a $5,000 fine. The defendants were charged with conspiring to
                       defraud the Federal government of more than $77 million dollars in unpaid motor fuel
                       taxes. The investigating agencies included the FBI, the IRS, OIG, prosecutors of the
                       Department of Justice and the New Jersey and Pennsylvania state revenue agencies.


Connecticut man, New Jersey woman jailed
in tax frauds totaling $140.4 million

The work of the Federal-state task force investigating motor-fuel tax fraud also led to sentences
in two other cases. Richard Ferrara of Connecticut was sentenced to 1 year and 9 months'
imprisonment, 3 years' supervised release, and to pay $12,000 in restitution. Ferrara pleaded
guilty to excise tax evasion and conspiracy in a scheme to evade approximately $402,000 in
motor-fuel excise taxes. Mary Ingram of Woodbridge, NJ, was sentenced to 5-1/2 years'
imprisonment and 3 years' supervised release. Ingram was found guilty of tax evasion, con-
spiracy, money-laundering, and wire fraud charges in a $140 million scheme to dodge fuel
taxes. Also, co-defendant Igor Erlikh of Brooklyn, NY, who had been captured earlier this year
in the former Soviet Union, pleaded guilty to tax evasion, conspiracy, and money-laundering.

                                                  30
                                                            September 1999

Illinois transportation department employees
guilty in license-selling scandal

Marion Seibel and George A. Velasco, both former managers of an Illinois state commercial drivers license
facility, pleaded guilty to racketeering in Federal court in Chicago. Also entering guilty pleas in connection
with a commercial drivers license-selling scandal at such facilities were Gonzalo Mendoza, Miguel
Calderon, Edwin Diaz and Nikola Blagojevich, who helped find customers for the illegal enterprise, and
William OConnor, a state DOT maintenance supervisor who pleaded guilty to tax evasion after accepting
$4,000 for helping unqualified drivers pass tests. Calderon and Diaz, alleged bagmen who acted as mid-
dlemen in the money-under-the-table scheme by collecting hundreds of dollars from each applicant and
helped unqualified applicants pass tests, pleaded to extortion. Mendoza and Blagojevich pleaded to racket-
eering. To date, 15 defendants have been charged in connection with the case; one trucker licensed through
the illegal scheme was involved in a fiery accident that killed six children.

            Testimony: DOT progressing in steps to achieve clean financial audit

            In testimony before the U.S. House Subcommittee on Oversight, Investigations, and Emergency
            Management of the Committee on Transportation and Infrastructure (report FE-1999-135), OIG
            updated the status and challenges DOT faces in achieving goals set in the Chief Financial
            Officers Act of 1990. The primary material weakness preventing DOT from getting an unquali-
            fied, or "clean," audit opinion relates to its property and equipment accounts, which total about
            $21 billion. Further, DOT's accounting system does not produce all the financial and budgetary
            data needed to produce its financial statements. DOT has taken significant actions to fix mate-
            rial weaknesses we identified in an audit in FY 1998, and it is on its way to a new accounting
            system. FAA, where much of the questioned property resides, is developing a cost-accounting
            system. Both systems should be operational within 2 years.


                              DOT: Fund cost-effective approaches to reduce
                              accidents at railroad grade crossings

                              OIGs review (report RT-1999-140) assessed DOTs progress halfway through
                              its 10-year plan to reduce accidents and deaths at road-level railroad crossings.
                              The goal is a 50 percent reduction; thus far DOT steps have reduced accidents
                              by 28 percent and deaths by 31 percent. We identified flexible barriers that
                              prevent end-runs around gates, use of photos to identify drivers who defy cross-
                              ing barriers, and stiffer penalties as cost-effective approaches. We also identified
                              trespassing on railroad property as the leading cause of railroad-related deaths;
                              a separate plan is needed to address that. Further, we urged FRA and FHWA to
                              monitor how states are spending funds meant to curb grade-crossing accidents.

                                                       31
         Information on Year-2000 readiness of airlines needed

         Though FAA has addressed the majority of its Year-2000 computer issues domestically, poli-
         cy should be set soon on how to address Y2K-related questions still hanging over aviation in
         some foreign countries, the Inspector General told a Senate hearing. In testimony before the
         Senate Special Committee on the Year-2000 Technology Problem, the Inspector General said
         FAA must quickly determine whether it will bar flights to nations that have not responded ade-
         quately to international questionnaires about Y2K preparedness. As of late October, 27 of 185
         countries surveyed by an international aviation group had not responded to a survey on Y2K
         issues, which involve possible computer failures as 1999 is succeeded by the year 2000. Most
         of those nations are in Asia or Africa. Another 18 nations surveyed did not supply enough
         information for assessment.



               Guilty pleas in conspiracy to transport HAZMATS

               Phillip D. Hinton, Jeffery T. Sherman and Adam M. Worobec pleaded guilty September 22
               to conspiracy to illegally deliver hazardous materials to an air carrier. The three attempted
               to illegally ship sodium hydroxide and GBL, which are classed as corrosive and must be
               properly identified and packaged for air transport, via an air carrier in Tallahassee, FL. The
               chemicals are used to manufacture gamma hydroxybutyrate (GHB), commonly known as
               the "date-rape drug." The trio, who entered their pleas in Federal court in Tallahassee, also
               face state drug charges in Florida and Georgia. The Federal investigation was conducted by
               OIG, the FAA, the Florida Division of Law Enforcement, and local enforcement agencies.
               Sentencing is set for December 3.



DOT-funded university research needs peer review of quality, relevance

At the request of Congressman James Oberstar of Minnesota, we reviewed management and over-
sight of university-based research funded by DOT (report MA-1999-130). Our review of 33
awards totaling $56 million led to the conclusion that the grants have producedor are expected
to produceone or more deliverables pertinent to DOTs strategic goals. However, we recom-
mended that DOT improve oversight by developing and implementing an expert peer-review sys-
tem to assess the quality and relevance of the university-based program and its products. Further,
we urged completion of the database of DOT-funded university-based research, including the nam-
ing of an administrator for it, and completion of the DOTs university-based research plan as called
for by the FY 1999 Performance Plan.



                                                    32
                                                       September 1999

      Trash-haulers guilty pleas spur jail, fines of more than $3.3 million

      Two Maryland trash-hauling firms pleaded guilty to charges including conspiracy, making false
      claims, making false statements and violation of the Clean Water Act. Michael W. Stevens, vice-pres-
      ident of A.W. Stevens and Sons Waste Disposal Systems Inc. and operator of St. Mary's Disposal
      Systems Inc., also pleaded guilty to falsely billing the Navy an estimated $800,000 through the ille-
      gal shipment of garbage to Virginia landfills. The company also pleaded guilty to falsifying a state-
      ment to the Office of Motor Carriers regarding hours the firm's drivers spent behind the wheel. The
      companies agreed to pay a criminal fine of $1.3 million and a civil fine of $2 million. Stevens was
      ordered to serve 5 months in jail and 5 months home monitoring and pay a $30,000 fine. Three other
      defendants sentenced under the Maryland litter-control lawAlbert W. Stevens, Susan Goolsby
      Stevens and Patrick T. Stevenseach must pay fines of $20,000 to both St. Marys County and Prince
      Georges County in Maryland, the sites of the illegal trash transfers.


Review of GM settlement agreement
shows spending meets terms of pact

The Center for Auto Safety asked the Secretary of Transportation and the Inspector
General to review spending under a General Motors media-awards program created as
part of a settlement agreement. OIG (in report TR-1999-139) analyzed the Public
Education Program created in connection with a settlement regarding GMs model C/K
pickup trucks. The review showed that the selections and financing of media awards by
GM, with the concurrence of DOTs National Highway Traffic Safety Administration,
were done in accord with the terms and conditions of the agreement. We made recom-
mendations to NHTSA about documentation and verification for future agreements.



                   Decision needed on organization, placement
                   of charting and cartography employees

                   Our survey of Aeronautical Charting and Cartography office employees (report MA-
                   1999-146) showed they are concerned about the likelihood of job losses if their
                   office becomes part of DOTs Transportation Administrative Services Center
                   (TASC). That is not an unrealistic concern, in that TASC is a fee-for-service organ-
                   ization and may not require a workforce the size of AC&Cs current one. Because of
                   job-loss concerns, 35 percent of AC&C employees surveyed strongly opposed a
                   move to TASC. There is also uncertainty about when such a change might occur.
                   DOT needs to work with Congress to reach a decision on the placement of the
                   AC&C, now part of the Commerce Department, because Congress has barred the
                   transfer to TASC.

                                                33
34
        Organization/Management

                        INSPECTOR GENERAL

                       DEPUTY INSPECTOR GENERAL


                                                                          LEGAL COUNSEL

ASSISTANT IG FOR              ASSISTANT IG FOR                          COMMUNICATIONS

 INVESTIGATIONS             AUDITING/EVALUATIONS                  INFORMATION/HUMAN RESOURCES

                                                                  FINANCIAL/ADMINISTRATIVE SVCS.




      DEPUTY          DEPUTY         DEPUTY          DEPUTY            DEPUTY               DEPUTY
      AIG FOR         AIG FOR        AIG FOR         AIG FOR          AIG FOR               AIG FOR
     INVESTIG-       AVIATION       HIGHWAYS      RAIL, TRANSIT      FINANCE &             MARITIME
      ATIONS                           AND             AND         INFORMATION            AND DEPART-
                                    HIGHWAY       SPECIAL PRO-     TECHNOLOGY             MENTAL PRO-
                                      SAFETY         GRAMS                                  GRAMS




   The Office of Inspector General for the Department of Transportation was created by
   Congress through the Inspector General Act of 1978 (Public Law 95-452). The Act sets
   several goals for OIG:

                    z	 To conduct or supervise objective audits and investigations of
                       DOTs programs and operations;
                    z To promote economy, effectiveness and efficiency within DOT;
                    z To prevent and detect fraud, waste, and abuse in the Departments
                       programs;
                    z	 To review existing and proposed laws or regulations affecting the
                       Department and make recommendations about them, and
                    z	 To keep the Secretary of Transportation and Congress fully
                       informed about problems in Departmental programs and operations.

   OIG is divided into two major units and five support units. The major units are the Office
   of Assistant Inspector General for Auditing/Evaluations and the Office of Assistant
   Inspector General for Investigations; each has headquarters staff and regional staff. The
   support units are the Office of Legal Counsel, the Communications Office, the Office of
   Information Resource Management, the Office of Human Resources, and the Office of
   Financial and Administrative Services.
                                           35
           Completed Audits April 1, 1999-September 30, 1999

                       (Dollars in Thousands)

                                                  Estimated Amounts*

Type of Review	                          No. of     No. of         Costs          Costs Un-           Funds to
                                         Reports    Recomm. Questioned            Supported           Better Use

Internal Audits:

       Program/Functional                   29        109      $           0      $        0          $ 168,000

       Chief Financial Officer


       Financial Statements:                  3          2     $           0      $        0          $ 672,000
       Total Internal Audits                32         111     $           0      $        0          $ 840,000


Grant Audits:
      Audits of Grantees under
       Single Audit Act                     21           35    $ 4,085            $        0          $         0
      Other Grant Audits                     1            2    $    13            $        0          $        13
      Total Grant Audits                    22           37    $ 4,098            $        0          $        13

Contract Audits:
      Contracts                             10           16 $ 1,452               $        0          $     250
      Total Contract Audits                 10           16 $ 1,452               $        0          $     250
      TOTALS                                64          164 $ 5,550               $        0          $ 840,263

                   * The dollars shown are the amounts reported to management. The actual amounts may change
                   during final resolution.




           Department of Transportation programs and operations are primarily carried out
           by the Departments own personnel and recipients of Federal grants. Audits by
           DOTs Office of Inspector General, as a result, fall into 3 categories: internal audits
           of Departmental programs and operations, audits of grant recipients, and reviews
           of work and spending by contractors. The table above shows OIGs results in the
           3 categories for the 6 months covered by this report.


                                                              36
        Management Decisions Regarding Audit Recommendations
                                                                (Dollars in Thousands)
                                        Number             Number of                                                                Funds to be
                                          of               Recommen-           Questioned               Unsupported                 Put to Better
       Description                      Reports              dations             Costs                    Costs*                        Use

        Unresolved                           31                 117***          $13,516                           0                    $ 353,076
        as of 4/1/99
       Audits with
     Findings During                         51                    164           $ 5,550                          0                    $ 840,263
     Current Period

Total to be Resolved                         82                    281          $19,066                           0                   $1,193,339


     Mgt. Decisions:
     A.Audits Prior                          27                    100          $11,616                           0                     $344,874
         Period

    B.Audits Current
                                             24                     76           $ 1,821                           0                    $168,263
        Period

   Total Resolved
                                             51                    176          $13,437                            0                    $513,137
Reports/Recommen-
      dations

    Unresolved as of
                                             31                    105           $ 5,629                           0                    $680,202
      9/30/99**

 Aging of Unresolved
        Audits:
 Less than 6 mos. old                                               88           $ 3,729                          0                     $672,000
                                             27
    6 mos. - 1 year                           3                     14                 0                          0                    $      1,702
   1 year - 18 mos.                           0                       0                  0                        0                     $             0
  18 mos. - 2 years                           0                       0                0                          0                     $             0
   Over 2 years old                           1                       3          $ 1,900                          0                     $ 6,500

TOTALS                                       31                    105           $ 5,629                          0                     $680,202

*Unsupported costs included with the figure shown as questioned costs.	          ***Includes 11 recommendations that were not included in the prior
                                                                                 Semiannual Report.

** Considered unresolved if management decisions have not been made on
all report recommendations.                                               37
     Audit Reports with Recommendations That Questioned Costs

                                                   (Dollars in Thousands)

                                        Number of             Number of Rec- Questioned                         Unsupported*
                                        Reports               ommendations   Costs                               Costs

A.     For which no manage-
       ment decision had
       been made by start of
       the reporting period              8                    14                    $ 13,516                $      0


B.     Which were issued
       during the period                22                    26                    $ 5,550                 $      0


   Totals (A+B)                         30                    40                    $ 19,066                $      0
C.    For which a manage-
      ment decision was
      made during the
      reporting period                  20                    26                    $ 13,436                $      0

       (i) dollar value of dis-
       allowed costs                    18**                  23**                  $ 4,685                 $      0
       (ii) dollar value of
       costs not disallowed              6**                  10***                 $   8,721               $      0

D.     For which no manage-
       ment decision has been
       made by the end of the
       reporting period       10                              14                    $ 5,629                 $      0

 *Unsupported costs are also included in the figures shown as questioned costs. ** Includes reports in which costs were both
 allowed and disallowed. *** Includes recommendations in which costs were both allowed and disallowed.

The Inspector General Act requires explana-                           The Inspector General Act also requires this
tions of reasons for significant revisions to                         report to describe any significant manage-
management decisions made during the                                  ment decision with which the Office of
reporting period. OIG follows up on audits                            Inspector General disagrees. At the close of
reported in earlier Semiannual Reports.                               this reporting period, there were no signifi-
During this reporting period, there were no                           cant management decisions with which
significant revisions of Departmental man-                            OIG disagreed.
agement decisions reported to OIG.
                                                             38
        Audit Reports with Recommendations that Funds be Put

                            to Better Use

                                                 (Dollars in Thousands)


                                                       Number of                  Number of                  Dollar
                                                       Reports                    Recommend-                 Value
                                                                                  ations                 (in thousands)
A.      For which no management
        decision had been made by
        the commencement of the
        reporting period                                          6                     12               $ 353,076

B.      Which were issued during the
        reporting period                                         11                     11               $ 840,263

        TOTALS (A+B)                                             17                     23               $1,193,339

C.      For which a management decision
        was made during the reporting
        period                                                   14                     20               $ 513,137


        (i)     dollar value of recommenda-
                tions that were agreed to by
                management:                                      12*                    18*              $ 477,274

        (ii)    dollar value of recommenda-
                tions that were not agreed to
                by management                                     3*                     3*              $   35,864

D.      For which no management decision
        had been made by the end of the
        reporting period                                          3                      3               $ 680,202

 *May include reports and recommendations in which some costs were allowed and others were disallowed.




                                                            39
                   Audit Reports Recommending Changes
                     for Safety, Economy or Efficiency

                                                                      Number of             Number of
                                                                       Reports           Recommendations
A.   For which no management decision had been made
     by the commencement of the reporting period                           24                  91*



B.   Which were issued during the reporting period                         37                  127

     TOTALS: (A + B)                                                       61                  218



C.   For which a management decision was made
     during the reporting period                                           32                  130



D.   For which no management decision has been made
     by the end of the reporting period                                    29                  88




        *Includes 11 recommendations that were not included in the prior Semiannual Report





                                                     40
                 Status of Unresolved Audit Recommendations

                              Over 6 Months Old


                  CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1996-SEPTEMBER 30, 1996

FAA-Airport Improvement Program        R9-FA-6-015        09/20/96   Working with FAA to resolve
Grants Provided to Hawaii DOT                                        all open issues



                  CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1998-MARCH 31, 1999

State Safety Oversight Program         TR-1999-071        03/12/99   Will resolve when FTA provides
 for Rail Systems                                                     target dates for implementation

Motor Carrier Program for Commercial   TR-1999-034        12/28/98   Unresolved issues under review
 Trucks at U.S. Borders                                               by the Office of the Secretary

Deployment of EDS, FAA                 AV-1999-001        10/05/98   Working with FAA to resolve
                                                                      all open issues




                                                     41
                           Profile of Pending Investigations
         DOT Operating             Number of                 Types of Cases
         Administration              Cases       Contracts Employees Grants   Other
Federal Highway
Administration                       192           20         4        32      136

Federal Aviation
Administration                       192           20         29        6      137

U.S. Coast Guard                      36           11         6         0       19

Federal Transit Administration        26            6         0        14       6

Research and Special Programs
Administration                        20            3         1         0       16

Office of the Secretary               15            3         1         1       10

Maritime Administration               11            4         0         0       7

National Highway Traffic
Safety Administration                  8            0         3         0       5

Federal Railroad Administration        5            1         0         0       4

Saint Lawrence Seaway
Development Corp.                      0            0         0         0       0

Other agencies                          1           0         1         0        0
      TOTALS:                         506          68        45        53      340

       Percent of total:              100          13         9        11       67




                                            42
                   Investigations
                                                             OIG investigations in this
                  Judicial Actions
                                                             reporting period spurred
         April 1, 1999-September 30, 1999                    $6,050,092 in recoveries
                 Indictments 134                             including fines, restitution,
                 Convictions 93                              civil judgments or settle-
             Years Sentenced 66                              ments, and Federal and
             Years Probation 58                              State recoveries. Federal
                        Fines $3,151,625                     recoveries go to the U.S.
Restitutions/Civil Judgments $427,659                        Treasury. State recoveries
            Federal Recovery $2,384,758                      are retained by the states.
              State Recovery $86,050

                     TOTAL $6,050,092



 The 6 months covered by this
                                                      Investigations
 report opened with a pending
                                                Administrative Actions
 caseload of 462. During the
 period, 99 cases were opened               April 1, 1999-September 30, 1999
 and 105 were closed, leaving a
 pending caseload of 456.
                                                      Employee Suspensions      9
                                            Employee Resignation/Retirement     6
                                                       Employee Terminated      2
                                                       Employee Restitution     6
          During the period, 170                       Employee Reprimand      10
          cases were accepted for                       Employee Counseled      8
          prosecution, while 22                    Debarments/Suspensions      15
          were declined.       The                         Corrective Action   17
          number of cases pend-
                                                   New Procedure Instituted     5
          ing before prosecutors as
                                                     Regulation/rule revised    1
          of September 30, 1999
          was 104.                                     Restatement of Policy    4

                                                                     TOTAL 83




                                           43
  Application of Audit Resources
  by Operating Administration



                                 RSPA 1%
           COAST    MARAD 4%
                                NHTSA 1%                                FAA
           GUARD     FRA 4%
                                                                        35%
             7%
    FTA
    9%

   FHWA
    16%




                                        OFFICE OF
                                      THE SECRETARY
                                           23%*
                                              *A substantial portion of this percentage reflects
                                              OIGs work auditing the Departments Consolidated
                                              Financial Statements, which includes work at FAA,
                                              FHWA, the U.S. Coast Guard and other operating
                                              administrations


  Application of Investigative Resources
  by Operating Administration


                               NHTSA 1%
                               MARAD 2%
                   RSPA 4%
                    FTA 4%         FRA 1%
                                                                     FHWA
      OST 7%
                                                                      43%
 COAST
GUARD 7%




                                FAA
                                31%




                                      44
                             OIG Fiscal Year 2000 Budget
                                       (Dollars in Thousands)
                              Travel$2,500       Other
General Services              TASC$1,410*          $2,209
Administration Rent$2,800




       Benefits
           $8,849


                                                                 Personnel Compensation
                                                                 $30,691




         *The Transportation Administrative Service Center provides reimbursable services to DOT
         operating administrations. OIG pays TASC for services including telecommunications, com-
         puter support, printing, copying, building management and the Departments central library.




                                                   45
                       Office of Inspector General

                               Audit Reports

                     April 1, 1999-September 30, 1999



                                FEDERAL AVIATION ADMINISTRATION

INTERNAL AUDITS - 11 reports
                                                                                         FOCUS OF REPORT/
REPORT          DATE   SUBJECT                                                           RECOMMENDATIONS:
AV-1999-138   09/30/99 Safety Issues Concerning Alliances/Code Sharing Agreements        Improve safety
FE-1999-126   09/09/99 Readiness for the Year 2000, Aviation Industry --                 Enhance readiness
                         Domestic and Foreign
AV-1999-124   08/18/99 Airway Facilities Maintenance Technician Training                 Improve training
FE-1999-119   08/04/99 Labor Costs for Facilities and Equipment Projects                 Improve financial data
AV-1999-114   07/21/99 Follow-Up Review of FAAs Runway Safety Program                   Improve safety
AV-1999-113   07/16/99 Security of Checked Baggage on Flights Within the United States   Increase security
AV-1999-099   05/28/99 Oversight of the Air Tour Industry                                Improve safety
FE-1999-103   05/20/99 Computer Security Controls of Data Processing Center              Increase security
AV-1999-100   05/13/99 Compliance with Flight Radio Communications in Mexico             Regulatory compliance
AV-1999-094   05/04/99 Expanding FAAs Contract Tower Program                            $18,000,000 better use
AV-1999-093   04/30/99 National Aviation Safety Inspection Program                       Improve safety

GRANT AUDIT - POST-AWARD - 4 reports

QC-1999-137   09/29/99   Dallas/Fort Worth International Airport
                        Better grantee oversight
QC-1999-128   09/13/99   Greater Orlando Aviation Authority, Florida
                    $1,663,264 questioned
QC-1999-110   06/25/99   Carson City, Nevada
                                            Better grantee oversight
QC-1999-107   06/23/99   Texarkana Airport Authority
                                    $21,972 questioned




                                 FEDERAL HIGHWAY ADMINISTRATION


INTERNAL AUDITS - 5 reports
                                                                                         FOCUS OF REPORT/
REPORT          DATE           SUBJECT                                                   RECOMMENDATIONS:
TR-1999-134   09/27/99   S. 1501 The Motor Carrier Safety Improvement Act of 1999        Improve trucking safety
TR-1999-133   09/27/99   Baseline Review of the Woodrow Wilson Bridge Project            Control expenditures
TR-1999-104   05/24/99   Overpayments of Premiums for the Central Arterys               $150,000,000 better use
                                  Owner-Controlled Insurance Program
MA-1999-095   05/05/99   Turner-Fairbank Highway Research Center Acquisition Process     Improve internal controls
TR-1999-091   04/26/99   Motor Carrier Safety Program                                    Improve trucking safety


                                                          46
GRANT AUDIT - POST-AWARD - 5 reports
QC-1999-145 09/30/99 State of Oklahoma                                                   $87,366 questioned
QC-1999-144 09/30/99 State of California                                                 $12,500 questioned
QC-1999-125 08/24/99 State of Delaware                                                   Better grantee oversight
QC-1999-111 07/06/99 Commonweath of Massachusetts                                        Better grantee oversight
QC-1999-121 08/09/99 State of Alabama                                                    Better grantee oversight




                                FEDERAL RAILROAD ADMINISTRATION

INTERNAL AUDITS - 2 reports
                                                                                         FOCUS OF REPORT/
REPORT          DATE           SUBJECT                                                   RECOMMENDATIONS:
RT-1999-140   09/30/99    Rail-Highway Grade Crossings                                   Improve safety
CE-1999-116   07/21/99    1999 Assessment of Amtraks                                    Assess long-term revenue/
                            Financial Needs through 2002                                       expenses




                                        MARITIME ADMINISTRATION

INTERNAL AUDITS - 2 reports

MA-1999-127   09/15/99   Status Update -- Massachusetts Heavy Industries Inc.            Protect U.S. interests
                               Title XI Loan Guarantee
MA-1999-115   07/20/99   Massachusetts Heavy Industries Inc.                             Protect U.S. interests
                               Title XI Loan Guarantee

GRANT AUDITS - 12 reports
                                                                                         FOCUS OF REPORT/
REPORT        DATE       SUBJECT                                                         RECOMMENDATIONS:
MA-1999-143   09/30/99   Ocean Chemical Transport, P&I Deductible                        $2,311 questioned
                                                                                         $2,311 better use
MA-1999-142   09/30/99   Ocean Chemical Carriers, P&I Deductible                         $6,192 questioned
                                                                                         $6,192 better use
MA-1999-141   09/30/99   Apex Marine Corp., National Shipping Authority                  $12,594 questioned
                                                                                         $12,594 better use
QC-1999-118 07/27/99     Port of Portland, Oregon                                        Better grantee oversight
MA-1999-117 07/23/99     Keystone Shipping Company, National Shipping Authority          Better grantee oversight
MA-1999-112 07/12/99     Farrell Lines Inc. Asbestosis Claim                             $157,359 questioned
                                                                                         $129,979 better use
MA-1999-098   05/11/99   Ocean Chemical Carriers Inc., Maintenance and Repair Costs      $88,260 questioned
                                                                                         $39,646 better use
MA-1999-097   05/11/99   Ocean Chemical Transport Inc., Maintenance and Repair Costs     $126,849 questioned
                                                                                         $56,984 better use
MA-1999-089   04/19/99   Matson Navigation Co. Inc., Construction Differential Subsidy   $12,729 questioned
                                                                                         $12,729 better use
MA-1999-088   04/19/99   Matson Navigation Co. Inc., Cargo Preference                    $135,569 questioned
                                                                                         $2,560 better use

                                                           47
MA-1999-087   04/19/99   Moran Services Corp., Cargo Preference                            $712,922 questioned
MA-1999-084   04/07/99   Maritime Overseas Corporation, Cargo Preference                   $209,984 questioned




                         OFFICE OF THE SECRETARY OF TRANSPORTATION

INTERNAL AUDITS - 8 reports

                                                                                           FOCUS OF REPORT/
REPORT          DATE           SUBJECT                                                     RECOMMENDATIONS:
MA-1999-146   09/30/99   Survey of Office of Aeronautical Charting/Cartography Employees   Employee opinion survey
FE-1999-135   09/30/99   Financial Data Quality                                            Improve financial information
FE-1999-132   09/30/99   Readiness for the Year 2000, Transportation Sector                Enhance readiness
FE-1999-131   09/27/99   Inactive Obligations                                              $672,000,000 better use
MA-1999-130   09/24/99   Management and Oversight of University-Based Research             Improve program oversight
MA-1999-106   06/23/99   Acquisition of Graphics Services                                  Change or enforce policy
FE-1999-096   05/05/99   Non-Tax Delinquent Debt                                           Financial oversight
FE-1999-082   04/05/99   The Year-2000 Technology Challenge                                Enhance readiness




                                      UNITED STATES COAST GUARD

INTERNAL AUDITS - 2 reports

                                                                                           FOCUS OF REPORT/
REPORT         DATE           SUBJECT                                                      RECOMMENDATIONS:

MA-1999-092   04/28/99   Abandoned Vessels Program                                         Improve program compliance
MA-1999-083   04/06/99   Environmental Restoration Program                                 Reduce future budgets




                                 FEDERAL TRANSIT ADMINISTRATION

INTERNAL AUDITS - 1 report
                                                                                           FOCUS OF REPORT/
REPORT        DATE       SUBJECT                                                           RECOMMENDATIONS


RT-1999-123   08/18/99   Hudson-Bergen Light Rail Transit System                           Improve fund use

GRANT AUDITS -- POST-AWARD - 11 Reports                                                    FOCUS OF REPORT/
                                                                                           RECOMMENDATIONS:
REPORT        DATE       SUBJECT
QC-1999-136   09/29/99   METRO, Portland, Oregon                                           Improve grantee oversight
QC-1999-129   09/13/99   Miami/Dade County, Florida                                        $122,000 questioned
QC-1999-122   08/12/99   State of Louisiana                                                $820,445 questioned

                                                        48
QC-1999-120   08/09/99    Port Authority of New York and New Jersey   Improve grantee oversight
QC-1999-109   06/25/99    New Jersey Transit Corporation              Improve grantee oversight
QC-1999-108   06/24/99    Miami/Dade County, Florida                  $30,000 questioned
QC-1999-105   06/15/99    Broward County, Florida                     Improve grantee oversight
QC-1999-101   05/20/99    Provo City Corporation, Utah                $69,000 questioned
QC-1999-090   04/20/99    City of Tulsa, Oklahoma                     $785,000 questioned
QC-1999-086   04/15/99    State of Connecticut                        Improve grantee oversight
QC-1999-085   04/15/99    State of Idaho                              $256,816 questioned



                   NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

INTERNAL AUDITS - 1 report

                                                                      FOCUS OF REPORT/
REPORT          DATE           SUBJECT                                RECOMMENDATIONS:

TR-1999-139   09/30/99	   Settlement Agreement Between DOT and        Improve documentation
                          General Motors Corp. Regarding
                          Model C/K Pickup Truck




                                                        49
                                                    Contacts

Inspector General Kenneth M. Mead                (202) 366-1959

Deputy Inspector General
    Raymond J. DeCarli                           (202) 366-1959

Assistant Inspector General for Auditing
      Alexis Stefani                             (202) 366-1992

Assistant Inspector General for Investigations
      Todd J. Zinser                             (202) 366-1967

Office of Legal Counsel
      Roger Williams                             (202) 366-8751
      Brian Dettelbach                           (202) 493-0211

Communications
   Jeff Nelligan                                 (202) 366-6312
   Jennifer Gavin, Semiannual Report             (202) 366-2009

Deputy Assistant Inspector Generals:
    Aviation, David Dobbs (acting)               (202) 366-0500

     Finance/Information Technology,
          John L. Meche                          (202) 366-1496

     Highways and Highway Safety,
         Patricia Thompson                       (202) 366-0687

     Maritime/Departmental Programs
          Tom Howard                             (202) 366-5630

     Rail, Transit and Special Programs
           Francis Mulvey                        (202) 366-0477
